                           NCUA 2005
                  FINANCIAL STATEMENT AUDITS
                              FOR
                               OPERATING FUND
                            SHARE INSURANCE FUND
                         CENTRAL LIQUIDITY FACILITY
                 COMMUNITY DEVELOPMENT REVOLVING LOAN FUND




                  For the year ended December 31, 2005

       Audited Financial Statements              Audit Report Number

           NCUA Operating Fund                        OIG-06-01
 National Credit Union Share Insurance Fund           OIG-06-02
          Central Liquidity Facility                  OIG-06-03
Community Development Revolving Loan Fund             OIG-06-04



                               March 31, 2006



                           _______________________
                              William A. DeSarno
                               Inspector General
                          EXECUTIVE SUMMARY
PURPOSE AND SCOPE             The National Credit Union Administration (NCUA)
                              Office of Inspector General contracted with the
independent public accounting firm of Deloitte & Touche to perform the financial
statement audits of the NCUA Operating Fund, the Share Insurance Fund, the
Central Liquidity Facility, and the Community Development Revolving Loan Fund,
for the year ended December 31, 2005.

The purpose of the audits is to express an opinion on whether the financial
statements are fairly presented. The independent firm also reviewed the internal
control structure and evaluated compliance with laws and regulations, as part of
their audit.

The audits were performed in accordance with generally accepted auditing
standards and Government Auditing Standards issued by the Comptroller
General of the United States.

FINANCIAL STATEMENT CONTRACT             The Inspector General contracted with
                                         Deloitte & Touche in August 2003 to
perform the financial statement audits mentioned above. The contract was for
2003, with options for 2004 and 2005. The Inspector General was the
contracting officer for this contract.

AUDIT RESULTS        Deloitte & Touche expressed unqualified opinions, stating
                     that the financial statements present fairly, in all material
respects, the financial position of the NCUA Operating Fund, the Share
Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Fund, at December 31, 2005, and the results of operations for
the year then ended.

Although Deloitte & Touche did not express an overall opinion of the Funds’
compliance with laws and regulations, their testing of compliance did not disclose
any significant deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses
in their review of the Funds’ internal control structures pertinent to financial
reporting. However, during the performance of the audit, we developed
recommendations related to internal control over financial reporting and certain
observations and recommendations on other accounting, administrative, and
operating matters. The observations and recommendations section of this report
is restricted to official use only.
National Credit Union
Administration
Operating Fund
Financial Statements as of and for the
Years Ended December 31, 2005 and 2004,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

TABLE OF CONTENTS


                                                                 Page

INDEPENDENT AUDITORS’ REPORT                                      1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2005 AND 2004:

 Balance Sheets                                                   2

 Statements of Revenues, Expenses, and Changes in Fund Balance    3

 Statements of Cash Flows                                         4

 Notes to Financial Statements                                   5–10
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:
We have audited the accompanying balance sheets of the National Credit Union Administration
Operating Fund (the “Fund”) as of December 31, 2005 and 2004, and the related statements of revenues,
expenses, and changes in fund balance, and of cash flows for the years then ended. These financial
statements are the responsibility of the Fund’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.
In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Operating Fund as of December 31, 2005 and 2004, and the
results of its operations and its cash flows for the years then ended in conformity with accounting
principles generally accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our report dated March 24,
2006, on our consideration of the National Credit Union Administration Operating Fund’s internal control
over financial reporting and our tests of its compliance and other matters. The purpose of that report is to
describe the scope of our testing, and not to provide an opinion on the internal control over financial
reporting or on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.


March 24, 2006




                                                       1
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                                             2005         2004
ASSETS

Cash and cash equivalents                                                $ 26,730     $ 18,227

Due from National Credit Union Share
 Insurance Fund (Note 4)                                                       133          150

Employee advances                                                              835          540

Other accounts receivable (Note 5)                                             480          138

Prepaid expenses and other assets                                              681          706

Fixed assets—Net of accumulated depreciation and amortization (Note 3)       35,199       35,994

TOTAL                                                                    $ 64,058     $ 55,755


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accounts payable                                                        $    6,399   $    4,173
 Obligations under capital leases (Note 6)                                      328        1,336
 Accrued wages and benefits                                                   6,391        2,381
 Accrued annual leave                                                         8,197        7,766
 Accrued employee travel                                                         20           21
 Note payable to National Credit Union Share Insurance Fund (Note 4)         23,802       25,143

       Total liabilities                                                     45,137       40,820

FUND BALANCE                                                                 18,921       14,935

TOTAL                                                                    $ 64,058     $ 55,755


See notes to financial statements.




                                                 -2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND
STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                        2005       2004

REVENUES:
 Operating fees                                       $ 61,959   $ 50,714
 Interest                                                1,332        581
 Other                                                     164         80

       Total revenues                                  63,455     51,375

EXPENSES (Note 4):
 Employee wages and benefits                           45,066     41,139
 Travel                                                 5,087      4,586
 Rent, communications, and utilities                    1,689      1,707
 Contracted services                                    2,784      2,572
 Other                                                  4,843      3,683

       Total expenses                                  59,469     53,687

EXCESS OF REVENUES OVER EXPENSES
 (EXPENSES OVER REVENUES)                                3,986     (2,312)

FUND BALANCE—Beginning of year                         14,935     17,247

FUND BALANCE—End of year                              $ 18,921   $ 14,935


See notes to financial statements.




                                       -3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                                                                 2005        2004

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses (expenses over revenues)                                     $ 3,986     $ (2,312)
 Adjustments to reconcile excess of revenues over expenses
  (expenses over revenues) to cash provided by (used in) operating activities:
  Depreciation and amortization                                                                  3,339       3,179
  Loss on disposal of employee residences held for resale                                          108         115
  Loss on disposal of fixed assets                                                                   2          44
  (Increase) decrease in assets:
    Due from National Credit Union Share Insurance Fund                                             17       1,764
    Employee advances                                                                             (295)       (201)
    Other accounts receivable                                                                     (342)         51
    Prepaid expenses                                                                               182        (321)
  (Decrease) increase in liabilities:
    Accounts payable                                                                             2,226        (332)
    Accrued wages and benefits                                                                   4,010      (3,074)
    Accrued annual leave                                                                           431        (466)
    Accrued employee travel                                                                         (1)        (56)

       Net cash provided by (used in) operating activities                                      13,663      (1,609)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of fixed assets and employee residences held for resale                               (3,499)    (3,325)
 Proceeds from sale of employee residences held for resale                                          723      1,083

       Net cash used in investing activities                                                     (2,776)    (2,242)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Repayments of note payable                                                                      (1,341)    (1,341)
 Principal payments under capital lease obligations                                              (1,043)    (1,031)

       Net cash used in financing activities                                                     (2,384)    (2,372)

NET INCREASE (DECREASE) IN CASH AND CASH EQUIVALENTS                                             8,503      (6,223)

CASH AND CASH EQUIVALENTS—Beginning of year                                                     18,227      24,450

CASH AND CASH EQUIVALENTS—End of year                                                          $ 26,730    $ 18,227

SUPPLEMENTAL DISCLOSURE OF CASH FLOW INFORMATION—Interest paid during the
 years ended December 31, 2005 and 2004, was $ 626 and $512, respectively.

SUPPLEMENTAL DISCLOSURE OF NONCASH FINANCING ACTIVITIES—Capital lease
 obligations of $35 and $0 were incurred when the Fund entered into leases for new equipment
 during the years ended December 31, 2005 and 2004, respectively.


See notes to financial statements.




                                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the “Fund”) was created by the
     Federal Credit Union Act of 1934. The Fund was established as a revolving fund in the
     United States Treasury under the management of the National Credit Union Administration
     (“NCUA”) Board for the purpose of providing administration and service to the Federal
     Credit Union System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents—The Federal Credit Union Act permits the Fund to make investments in
     United States Government securities or securities guaranteed as to both principal and
     interest by the United States Government. Cash equivalents are highly liquid investments
     with original maturities of three months or less. All investments in 2005 and 2004 were cash
     equivalents and are stated at cost, which approximates fair value.

     Depreciation and Amortization—Building, furniture and equipment, equipment under
     capital leases, and leasehold improvements are recorded at cost. Depreciation and
     amortization are computed by the straight-line method over the estimated useful lives of the
     building, furniture and equipment, and the shorter of the estimated useful life or lease term
     for leasehold improvements. Estimated useful lives are forty years for the building and three
     to ten years for the furniture, equipment, and leasehold improvements.

     Operating Fees—The Fund assesses each federally chartered credit union an annual fee
     based on the credit union’s asset base as of the preceding December 31. The fee is designed
     to cover the costs of providing administration and service to the Federal Credit Union
     System. The Fund recognizes this operating fee revenue ratably over the year.

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c) (1) of
     the Internal Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used
     in estimating the fair value disclosures for financial instruments:

          Cash and cash equivalents, receivables from National Credit Union Share Insurance
          Fund (“NCUSIF”) and National Credit Union Administration Central Liquidity
          Facility(“NCUA CLF”), employee advances, other accounts receivable, accounts and
          notes payable to NCUSIF, and other accounts payable are recorded at book values,
          which approximate the respective fair values.




                                                5
     Use of Estimates—The preparation of financial statements in conformity with accounting
     principles generally accepted in the United States of America requires management to make
     estimates and assumptions that affect the reported amounts of assets and liabilities and
     disclosure of contingent assets and liabilities at the date of the financial statements and the
     reported amounts of revenues and expenses during the reporting period. Actual results could
     differ from management’s estimates.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                       2005             2004

       Office building and land                                                     $ 42,626       $ 42,626
       Furniture and equipment                                                        13,338         10,827
       Equipment under capital leases                                                  3,243          3,215

              Total                                                                    59,207          56,668

       Less accumulated depreciation and amortization                                 (24,008)         (20,674)

       Fixed assets—net                                                             $ 35,199       $ 35,994


     Accumulated amortization balances for equipment under capital leases as of December 31,
     2005 and 2004, were (in thousands) $2,909 and $2,000, respectively.

4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
     NCUSIF for these services based upon an annual allocation factor approved by the NCUA
     Board and derived from a study of actual usage. The allocation factor was 57.0% and
     59.80% to NCUSIF for 2005 and 2004, respectively. The cost of the services allocated to
     NCUSIF, which totaled approximately $78,832,000 and $79,863,000 for 2005 and 2004,
     respectively, is reflected as a reduction of the corresponding expenses in the accompanying
     financial statements.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year
     secured term note with NCUSIF. The monies were drawn as needed to fund the costs of
     constructing a building in 1993. Interest costs incurred were approximately $626,000 and
     $512,000 for 2005 and 2004, respectively. The note payable balances at December 31, 2005
     and 2004, were approximately $23,802,000 and $25,143,000, respectively.




                                                 6
     The above note requires principal repayments as follows (in thousands):

                                                                                                     Secured
                                                                                                    Term Note

       2006                                                                                         $    1,341
       2007                                                                                              1,341
       2008                                                                                              1,341
       2009                                                                                              1,341
       2010                                                                                              1,341
       Thereafter                                                                                       17,097

                                                                                                    $ 23,802


       The variable rate on the note is equal to NCUSIF’s prior-month yield on investments. The
       average interest rates during 2005 and 2004, were 2.57% and 1.99%, respectively. The
       interest rates at December 31, 2005 and 2004, were 3.19% and 2.00%, respectively.

5.   TRANSACTIONS WITH NCUA CLF

       Certain administrative services are provided by the Fund to NCUA CLF. The Fund charges
       NCUA CLF for these services based upon rates approved by the NCUA Board. The costs of
       the services provided to NCUA CLF were $220,000 and $218,000 for 2005 and 2004,
       respectively. Other accounts receivable include approximately $91,000 of amounts due
       from NCUA CLF as of both December 31, 2005 and 2004.

6.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into a number of lease
     agreements with vendors for the rental of office space as well as the lease of office
     equipment that includes laptops, printers, monitors, and copiers.

     Operating Leases—The Fund leases office space under lease agreements that expire
     through 2008. Office rental charges amounted to approximately $793,582 and $1,018,000 of
     which approximately $452,324 and $608,580 was reimbursed by NCUSIF for 2005 and
     2004, respectively. In addition, the Fund leases office equipment under operating leases
     with lease terms of less than one year.

     The operating lease for the former Region IV (Chicago) regional office space was
     terminated early in May 2004 to coincide with the closing of that office. In accordance with
     lease agreement the termination cost was paid in the amount of $331,800.

     Capital Leases—The Fund leases equipment under lease agreements that expire through
     2008.




                                                7
     The future minimum lease payments as of December 31, 2005, are as follows (in
     thousands):

                                                                                        Operating   Capital
                                                                                         Leases     Leases

       2006                                                                            $    732     $ 290
       2007                                                                                 663        25
       2008                                                                                 561        19
       2009                                                                                 575         6
       2010                                                                                 297

       Total                                                                           $ 2,828       340

       Less imputed interest                                                                         (12)

       Present value of minimum lease payments                                                      $ 328


     Based on the allocation factor approved by the NCUA Board for 2004, NCUSIF will
     reimburse the Fund for approximately 57.0% of the future operating lease payments.

7.   RETIREMENT PLANS

     The employees of the Fund are participants in the Civil Service Retirement and Disability
     Fund, which includes the Federal Employees’ Retirement System (“FERS”). Both plans are
     defined benefit retirement plans covering all of the employees of the Fund. FERS is
     comprised of a Social Security Benefits Plan, a Basic Benefits Plan, and a Savings Plan.
     Contributions to the plans are based on a percentage of employees’ gross pay. Under the
     Savings Plan, employees can also elect additional contributions between 1% and 15% of
     their gross pay, and the Fund will match up to 5% of the employees’ gross pay. In 2005 and
     2004, the Fund’s contributions to the plans were approximately $11,060,000 and
     $10,561,000, respectively, of which approximately $6,304,000 and $6,315,000,
     respectively, were reimbursed by NCUSIF.

     The Fund does not account for the assets of the above plans and does not have actuarial data
     with respect to accumulated plan benefits or the unfunded liability relative to eligible
     employees. These amounts are reported by the U.S. Office of Personnel Management for the
     Civil Service Retirement and Disability Fund and are not allocated to individual employers.




                                               8
8.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as
     follows (in thousands):

                                                           December 31, 2005              December 31, 2004
                                                         Carrying        Fair            Carrying      Fair
                                                         Amount         Value            Amount       Value

       Cash and cash equivalents                       $ 26,730       $ 26,730          $ 18,227       $ 18,227
       Due from NCUSIF                                      133       $    133               150            150
       Employee advances                                    835       $    835               540            540
       Other accounts receivable                            480       $    480               138            138
       Accounts payable                                   6,399       $ 6,399              4,173          4,173
       Obligation under capital lease                       328       $    328             1,336          1,336
       Note payable to NCUSIF                            23,802       $ 23,802            25,143         25,143


9.   CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation.
     The Fund records an estimated loss for unresolved disputes to the extent that such losses are
     probable and reasonably estimable. In 2005, $1,287,000 was accrued to reflect probable
     losses. Based on the allocation factor approved by the NCUA Board, the estimated costs to
     the Fund and NCUSIF are $553,000 and $734,000, respectively. In the opinion of
     management, the ultimate liability with respect to any other disputes, if any, will not be
     material to NCUA’s financial position.

10. RESTRUCTURING

     NCUA announced on January 29, 2003, a regional restructuring plan, previously approved
     by the Board on November 21, 2002. The restructuring plan relocated the Region VI office
     in Concord, California, to Tempe, Arizona, and renumbered it to Region V. The plan also
     closed the Region IV regional office in Chicago, Illinois. The Region IV relocation and its
     related costs began in early 2003 and were completed by June 2005. Region V, located in
     Austin, Texas, was renumbered to Region IV. Credit union supervision was aligned with the
     five regions and became effective as of January 1, 2004.

     NCUA estimated that the costs to be incurred for the regional restructuring plan were
     $3,370,000, which included relocation costs of $1,597,000, and miscellaneous
     administrative and other costs of $1,773,000. Approximately $1,880,000 of these estimated
     costs related to 2004. Included in the cost estimate for 2004 are accrued costs that were to be
     expended in 2005. Based on the allocation factors approved by the NCUA Board, the
     Operating Fund was responsible for 40.20% of costs expended in 2004. Thus, the Fund’s
     estimated cost for the regional restructuring plan in 2004 was approximately $756,000, and
     the NCUSIF’s estimated cost for the regional restructuring plan in 2004 was $1,124,000.
     Substantially all costs have been incurred except for some final relocation costs for
     employees. In accordance with SFAS Statement No. 146, “Accounting for Costs Associated
     with Exit and Disposal Activities”, accruals of approximately $29,000 and $270,000 for
     relocations remain in the Fund as of December 31, 2005 and 2004, respectively.




                                                 9
11. PURCHASE COMMITMENT

   In December 2005, the Fund entered into a $4.2 million commitment for the acquisition of
   1,620 laptop computers and peripheral equipment to be used by agency staff and state
   supervision authorities. The commitment includes $3.9 million for a 39 month capital lease,
   payable over 12 quarterly periods at $324,000 per quarter, starting April 1, 2006. The cost
   of the acquisition is shared with the NCUSIF, based upon computers used by the state
   supervision authorities, which will be approximately $1.1 million or 28 percent of the total
   cost.

12. HURRICANE RELATED MATTERS

   As part of its regulatory relief and forbearance efforts for credit unions and their members
   impacted by hurricane activity during 2005, the NCUA Board will allow credit unions that
   are located in hurricane-affected areas to pay an operating fee that is based on assets that
   exclude hurricane-related Federal Emergency Management Agency and insurance payouts.
   In the opinion of management, this will not have a significant effect on 2006 operating fee
   collections.




                                             10
National Credit Union
Share Insurance Fund
Financial Statements as of and for the
Years Ended December 31, 2005 and 2004,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION SHARE INSURANCE FUND

TABLE OF CONTENTS


                                                     Page

INDEPENDENT AUDITORS’ REPORT                          1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2005 AND 2004:

 Balance Sheets                                       2

 Statements of Operations                             3

 Statements of Fund Balance                           4

 Statements of Cash Flows                             5

 Notes to Financial Statements                       6–15
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:
We have audited the accompanying balance sheets of the National Credit Union Share Insurance Fund
(the “Fund”) as of December 31, 2005 and 2004, and the related statements of operations, fund balance,
and cash flows for the years then ended. These financial statements are the responsibility of the Fund’s
management. Our responsibility is to express an opinion on these financial statements based on our
audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial reporting as a basis for
designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
an opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.
In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Share Insurance Fund as of December 31, 2005 and 2004, and the results of its
operations and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated March 24,
2006, on our consideration of National Credit Union Share Insurance Fund’s internal control over
financial reporting and our tests of its compliance and other matters. The purpose of that report is to
describe the scope of our testing, and not to provide an opinion on the internal control over financial
reporting or on compliance. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in considering the
results of our audit.



March 24, 2006




                                                      1
NATIONAL CREDIT UNION SHARE INSURANCE FUND
BALANCE SHEETS
AS OF DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                                        2005            2004
ASSETS

ASSETS:
 Investments (Note 6)                                              $ 4,808,210     $ 4,485,591
 Cash and cash equivalents                                           1,798,763       1,872,174
 Accrued interest receivable                                            52,102          38,246
 Assets acquired in assistance to insured credit unions                 17,588          16,627
 Note receivable—National Credit Union
  Administration Operating Fund (Note 8)                                 23,802          25,143
 Other notes receivable                                                   1,740           1,558
 Fixed assets—net of accumulated depreciation
  and amortization (Note 3)                                                 104             518

TOTAL                                                              $ 6,702,309     $ 6,439,857


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Estimated losses from supervised credit unions (Note 4)           $     72,976    $     67,126
 Amounts due to insured shareholders of liquidated credit unions          8,257          11,601
 Due to National Credit Union Administration
  Operating Fund (Note 8)                                                   133             150
 Cash assistance liability                                                2,357           1,078
 Accounts payable                                                            35              72
 Obligations under capital leases (Note 9)                                  107             522

       Total liabilities                                                 83,865          80,549

FUND BALANCE:
 Insured credit unions’ accumulated contributions                      5,128,031       4,943,144
 Insurance fund balance                                                1,490,413       1,416,164

       Total fund balance                                              6,618,444       6,359,308

TOTAL                                                              $ 6,702,309     $ 6,439,857


See notes to financial statements.




                                                    -2-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                                       2005        2004

REVENUES:
 Interest                                                            $ 175,017   $ 124,836
 Other                                                                     645         515

       Total revenues                                                 175,662     125,351

EXPENSES (Note 8):
 Administrative expenses:
  Employee wages and benefits                                          59,739      61,196
  Travel                                                                6,743       6,822
  Rent, communications, and utilities                                   2,239       2,539
  Contracted services                                                   3,691       3,827
  Provision (reduction of allowance) for insurance losses (Note 4)     20,940      (3,424)
  Other                                                                 8,061       7,021

       Total expenses                                                 101,413      77,981

EXCESS OF REVENUES OVER EXPENSES                                     $ 74,249    $ 47,370


See notes to financial statements.




                                                   -3-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(Dollars in thousands)


                                                     Insured
                                                  Credit Unions’    Insurance
                                                  Accumulated         Fund
                                                  Contributions      Balance

BALANCE—JANUARY 1, 2004                           $ 4,704,596      $ 1,368,794

 Contributions from insured credit unions             238,548

 Excess of revenues over expenses                                       47,370

BALANCE—DECEMBER 31, 2004                            4,943,144       1,416,164

 Contributions from insured credit unions             184,887

 Excess of revenues over expenses                                       74,249

BALANCE—DECEMBER 31, 2005                         $ 5,128,031      $ 1,490,413


See notes to financial statements.




                                            -4-
NATIONAL CREDIT UNION SHARE INSURANCE FUND
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(Dollars in thousands)

                                                                          2005              2004
CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenues over expenses                                   $      74,249     $      47,370
 Adjustments to reconcile excess of revenues over
  expenses to cash provided by operating activities:
  Depreciation and amortization                                               414               416
  Amortization of premiums and discounts on investments - net              49,022            98,206
  Reserves (recoveries) relating to losses from supervised
   credit unions—net                                                        5,850             (9,541)
 Decrease (increase) in assets:
  Accrued interest receivable                                             (13,856)             7,515
  Assets acquired in assistance to insured credit unions—net                 (961)            (4,410)
  NCUSIF subordinated notes                                                                    1,711
  Other notes receivable                                                     (182)              (678)
 Increase (decrease) in liabilities:
  Amounts due to National Credit Union
   Administration Operating Fund                                               (17)           (1,764)
  Amounts due to insured shareholders of liquidated credit unions           (3,344)            2,060
  Accounts payable                                                             (37)               69
  Cash assistance liability                                                  1,279               978

       Net cash provided by operating activities                          112,417           141,932

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchases of investments                                               (2,271,641)       (2,374,187)
 Proceeds from maturities of investments                                 1,900,000         2,500,000
 Collections on note receivable—National Credit
  Union Administration Operating Fund                                       1,341             1,341

       Net cash (used in) provided by investing activities               (370,300)          127,154

CASH FLOWS FROM FINANCING ACTIVITIES:
 Contributions from insured credit unions                                 184,887           238,548
 Principal payments under capital lease obligation                           (415)             (414)

       Net cash provided by financing activities                          184,472           238,134

NET INCREASE IN CASH AND CASH EQUIVALENTS                                  (73,411)         507,220
CASH AND CASH EQUIVALENTS—Beginning of year                             1,872,174         1,364,954

CASH AND CASH EQUIVALENTS—End of year                               $ 1,798,763       $ 1,872,174

See notes to financial statements.




                                                     -5-
NATIONAL CREDIT UNION SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Share Insurance Fund (the “Fund” or “NCUSIF”) was created by
     the Public Law 91-468 (Title II of the Federal Credit Union Act), which was amended in
     1984 by Public Law 98-369. The Fund was established as a revolving fund in the United
     States Treasury under the management of the National Credit Union Administration
     (“NCUA”) Board for the purpose of insuring member share deposits in all federal credit
     unions and in qualifying state credit unions that request insurance. The maximum amount of
     insurance is $100,000 per shareholder account.

     NCUA exercises direct supervisory authority over federal credit unions and coordinates
     required supervisory involvement with the state chartering authority for state-chartered
     credit unions insured by the Fund. Insured credit unions are required to report certain
     financial and statistical information to NCUA on a semiannual or quarterly basis depending
     on the size of the credit union and are subject to periodic examination by NCUA.
     Information derived through the supervisory and examination process provides the Fund
     with the ability to identify credit unions experiencing financial difficulties that may require
     assistance from the Fund.

     Credit unions experiencing financial difficulties may be assisted by the Fund in continuing
     their operations if these difficulties are considered by the Fund to be temporary or
     correctable. This special assistance may be in the form of a waiver of statutory reserve
     requirements, a guarantee account, and/or cash assistance. If continuation of the credit
     union’s operations with Fund assistance is not feasible, a merger partner may be sought. If
     the assistance or merger alternatives are not practical, the credit union is liquidated.

     The first form of special assistance is waivers of statutory reserve requirements, whereby the
     credit union is permitted to cease making additions to its regular reserve and, in more severe
     cases, to commence charging operating losses against its regular reserve. When all reserves
     have been depleted by the credit union, the Fund may provide a reserve guarantee account in
     the amount of the reserve deficit. In addition, the Fund may provide cash assistance in the
     form of share deposits and NCUSIF subordinated notes, or may purchase assets from the
     credit union.

     Mergers of financially troubled credit unions with stronger credit unions may also require
     Fund assistance. Merger assistance may be in the form of cash assistance, purchase of
     certain assets by the Fund, and/or guarantees of the values of certain assets (primarily
     loans).

     When a credit union is no longer able to continue operating and the merger and assistance
     alternatives are not practical, the Fund will liquidate the credit union, dispose of its assets,
     and pay members’ shares up to the maximum insured amount. The values of certain assets
     sold (primarily loans) are sometimes guaranteed to third-party purchasers by the Fund.




                                                 -6-
2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents and Investments—Title II of the Federal Credit Union Act limits the
     Fund’s investments to United States Government securities or securities guaranteed as to
     both principal and interest by the United States Government. Cash equivalents are highly
     liquid investments with original maturities of three months or less. All investments are
     classified as held-to-maturity under Statement of Financial Standards No. 115, Accounting
     for Certain Investments in Debt and Equity Securities. Accordingly, the Fund records
     investments at amortized cost. Amortized cost is the face value of the securities plus the
     unamortized premium or less the unamortized discount.

     Depreciation and Amortization—Furniture, equipment and capital leases are recorded at
     cost. Depreciation and amortization are computed by the straight-line method over the
     estimated useful lives of the furniture and equipment and the shorter of the estimated useful
     life or lease term for capital leases. Estimated useful lives are three years for the furniture,
     equipment and capital leases.

     Advances to Insured Credit Unions—The Fund provides cash assistance in the form of
     interest and noninterest-bearing NCUSIF (“National Credit Union Share Insurance Fund”)
     subordinated notes (carried at face value), share deposits, and loans to certain credit unions
     to assist them in continuing their operations.

     Assets Acquired in Assistance to Insured Credit Unions—The Fund acquires the assets of
     liquidating credit unions pending their ultimate disposition. To assist in the merger of credit
     unions, the Fund may purchase certain credit union assets. In addition, the Fund may
     provide cash assistance by acquiring non-performing assets of a credit union experiencing
     financial difficulty. These acquired assets are maintained by the Asset Management and
     Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated net
     realizable value.

     Premium Revenue—The Fund may assess each insured credit union a premium charge for
     insurance in an amount stated as a percentage of insured shares outstanding as of December
     31 of the preceding insurance year if the Fund’s equity ratio is less than 1.3%. The NCUA
     Board waived the 2005 and 2004 share insurance premiums (see Note 5).

     Income Taxes—The Fund is exempt from Federal income taxes under Section 501(c)(1) of
     the Internal Revenue Code.

     Fair Value of Financial Instruments—The following methods and assumptions were used
     in estimating the fair value disclosures for financial instruments:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents
     approximate fair values.

     Investments—The fair value for investments is the quoted market value.

     Other Notes Receivable—It is not practicable to estimate the fair value of these assets as
     there is no secondary market. The Fund has the ability and the intention to hold any such
     notes to maturity.




                                                -7-
     Other—Accrued interest receivable, other accounts receivable, note receivable from NCUA
     Operating Fund, due to NCUA Operating Fund, capital lease obligations, due to insured
     shareholders of liquidated credit unions, and accounts payable are recorded at book values,
     which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting
     principles generally accepted in the United States of America requires management to make
     estimates and assumptions, particularly the estimated losses from supervised credit unions,
     that affect the reported amounts of assets and liabilities and disclosures of contingent assets
     and liabilities at the date of the financial statements and the reported amounts of revenues
     and expenses during the reporting period. Actual results could differ from management’s
     estimates. The more significant estimates include the estimated losses from supervised
     credit unions and the allowance for loss on assets acquired in assistance to insured credit
     unions.

     Reclassifications—Certain 2004 balances have been reclassified to conform to the 2005
     presentation.

3.   FIXED ASSETS

     At December 31, 2005 and 2004, fixed assets are comprised of the following (in thousands):

                                                                                            2005            2004

       Furniture and equipment                                                         $     500       $     500
       Equipment under capital leases                                                      1,237           1,240

              Total                                                                        1,737           1,740

       Less—Accumulated depreciation and amortization                                      (1,633)         (1,222)

       Total fixed assets—net                                                          $     104       $     518


     Accumulated amortization balances for equipment under capital leases as of December 31,
     2005 and 2004, totaled (in thousands) $1,133 and $723, respectively.

4.   PROVISION FOR INSURANCE LOSSES

     Management identifies credit unions experiencing financial difficulty through NCUA’s
     supervisory and examination process. The estimated losses from these supervised credit
     unions are determined by management on a specified case basis. Management also evaluates
     overall economic trends and monitors potential system-wide risk factors such as increasing
     levels of consumer debt, bankruptcies, and delinquencies. NCUA applies a rating system to
     assess a credit union’s financial condition and operations in the areas of Capital Adequacy,
     Asset Quality, Management, Earnings, and Asset/Liability Management (“CAMEL”). The
     CAMEL Rating System is a tool to measure risk and allocate resources for supervisory
     purposes. The NCUA periodically reviews the CAMEL Rating System to respond to
     continuing economic and regulatory changes in the credit union industry. During 2004,
     NCUA developed a new model of determining reserve requirements. For non-specified case
     reserve requirements, risk profile categories are established based on the CAMEL ratings of



                                               -8-
     problem credit unions, and probable failure and loss rates are applied based on historical
     data. The anticipated losses are net of estimated recoveries from the disposition of the assets
     of failed credit unions.

     Total insurance in force as of December 31, 2005 and 2004, is $516.6 billion and $500
     billion, respectively, which includes natural person and corporate credit unions. The total net
     reserves for identified and anticipated losses from supervised credit unions’ failures are
     $73 million and $67 million at December 31, 2005 and 2004, respectively. Should there be
     no recoveries provided during the resolution process, potential additional reserves for
     $10 million would be required as of December 31, 2005.

     In exercising its supervisory function, the Fund will, at times, extend guarantees of assets
     (primarily loans) to third-party purchasers or to credit unions to facilitate mergers. The Fund
     would be obligated upon non-performance. Such guarantees totaled approximately $0 at
     both December 31, 2005 and 2004. The estimated losses from asset and merger guarantees
     are determined by management on a case-by-case evaluation.

     In addition, the Fund may grant a guaranteed line-of-credit to a third party credit provider,
     such as a corporate credit union or bank, if a credit union has a current or immediate
     liquidity concern and the credit provider has refused to extend credit without a guarantee.
     The Fund would be obligated if the credit union failed to perform. Total line-of-credit
     guarantees of credit unions at December 31, 2005 and 2004, are approximately $2.2 million
     and $0, respectively. The total balances outstanding under these line-of-credit guarantees at
     December 31, 2005 and 2004, are approximately $2.1 million and $0, respectively.

     From time to time, the Fund provides indemnifications in merger assistance agreements to
     acquiring credit unions. Such indemnifications make the Fund contingently liable based on
     the outcome of legal actions. As of December 31, 2005, outstanding indemnification
     contingencies total approximately $1.4 million. No such indemnification contingencies
     existed as of December 31, 2004.The activity in the reserves for estimated losses from
     supervised credit unions for the years ended December 31, 2005 and 2004, was as follows
     (in thousands):

                                                                                       2005             2004

       Beginning Balance                                                            $ 67,126       $ 76,667

         Insurance losses                                                             (24,177)         (17,660)
         Recoveries                                                                     9,087           11,543
         Provision (reduction of allowance) for insurance losses                       20,940           (3,424)

       Ending Balance                                                               $ 72,976       $ 67,126


5.   FUND CAPITALIZATION

     The Credit Union Membership Access Act of 1998 (“CUMAA”) mandated changes to the
     Fund’s capitalization provisions effective January 1, 2000. Each insured credit union shall
     pay to and maintain with the Fund a deposit in an amount equaling 1% of the credit union’s
     insured shares. The amount of each insured credit union’s deposit shall be adjusted as


                                               -9-
follows, in accordance with procedures determined by the NCUA Board, to reflect changes
in the credit union’s insured shares: (i) annually, in the case of an insured credit union with
total assets of not more than $50 million; and (ii) semiannually, in the case of an insured
credit union with total assets of $50 million or more. The annual and semiannual
adjustments are based on member share deposits outstanding as of December 31 of the
preceding year and June 30 of the current year, respectively. The 1% contribution will be
returned to the insured credit union in the event that its insurance coverage is terminated, or
is obtained from another source, or the operations of the Fund are transferred from the
NCUA Board.

The CUMAA mandates certain premium charges from insured credit unions and
distributions from the Fund under certain circumstances. A premium charge to insured
credit unions is required if the Fund’s equity ratio (as defined in the CUMAA) falls below
1.2% of insured shares. Also, pro rata distributions to insured credit unions after each
calendar year are required if, as of year-end:

(i)   Any loans to the Fund from the Federal Government, and any interest on those loans,
      have been repaid;

(ii) The Fund’s equity ratio exceeds the normal operating level (as defined in the
     CUMAA, an equity ratio specified by the NCUA Board, which shall be not less than
     1.2% and not more than 1.5%); and

(iii) The Fund’s available assets ratio, as defined in the CUMAA, exceeds 1.0%.

The NCUA Board has determined that the normal operating level is 1.30% at December 31,
2005 and 2004. The calculated equity ratios at December 31, 2005 and 2004 were 1.28%
and 1.27%, respectively.

Beginning in 2000, the CUMAA mandates that dividends are determined from specific
ratios, which are based upon year-end reports of insured shares. Accordingly, dividends
associated with insured shares at year-end are declared and paid in the subsequent year.

The NCUA Board has declared that no dividends were payable on insured shares as of
December 31, 2005 and 2004, because the equity ratios of 1.28% and 1.27%, respectively,
were below the normal operating level of 1.30%. Total insured shares as of December 31,
2005 and 2004, were $516.6 billion and $500 billion, respectively.




                                          - 10 -
6.   INVESTMENTS

     All cash received by the Fund that is not used for outlays related to assistance to insured
     credit unions and liquidation activities is invested in U.S. Treasury securities.

     At December 31, 2005 and 2004, investments consist of the following (in thousands):

                                                                  December 31, 2005
                                          Yield to                      Gross       Gross            Estimated
                                         Maturity         Amortized   Unrealized Unrealized           Market
                                         at Market          Cost        Gains       Losses             Value
                                    (At Purchase Date)
       U.S. Treasury
        Securities:
        Maturities up to one year              2.38 % $ 2,308,827         $           $ (21,265)   $ 2,287,562
        Maturities after one year
         through five years                    3.26 %     2,499,383                     (35,367)     2,464,016

       Total                                             $ 4,808,210      $           $ (56,632)   $ 4,751,578

                                                                  December 31, 2004
                                          Yield to                      Gross       Gross            Estimated
                                         Maturity         Amortized   Unrealized Unrealized           Market
                                         at Market          Cost        Gains       Losses             Value
                                    (At Purchase Date)
       U.S. Treasury
        Securities:
        Maturities up to one year              1.76 % $ 2,015,675         $ 190       $ (8,428)    $ 2,007,437
        Maturities after one year
         through five years                    2.30       2,469,916                     (29,977)     2,439,939

       Total                                             $ 4,485,591      $ 190       $ (38,405)   $ 4,447,376


     Total investment purchases during 2005 and 2004 were approximately $2.3 billion and $2.4
     billion, respectively. Investment maturities during 2005 and 2004 were approximately
     $1.9 billion and $2.5 billion, respectively. The Fund has the capability and management has
     the intention to hold all investments held at December 31, 2005 and 2004 to maturity. There
     were no investment sales during 2005 and 2004.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the
     United States, upon authorization by the NCUA Board, up to a maximum of $100,000,000.
     The NCUA Central Liquidity Facility (“CLF”) is authorized to make advances to the Fund
     under terms and conditions established by the NCUA Board. No borrowings were obtained
     from these sources during 2005 and 2004.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund.
     The NCUA Operating Fund charges the Fund for these services based on an annual
     allocation factor approved by the NCUA Board and derived from a study of actual usage


                                               - 11 -
conducted by the management of these Funds. The allocation factor was 57% and 59.8% to
the Fund for 2005 and 2004, respectively. The cost of services provided by the NCUA
Operating Fund was approximately $78,832,000 and $79,863,000 for 2005 and 2004,
respectively, and includes pension contributions of approximately $6,304,000 and
$6,315,000 to the Civil Service Retirement System and Federal Employees Retirement
System defined benefit retirement plans for 2005 and 2004, respectively.

In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-
year secured term note with the NCUA Operating Fund. The monies were advanced to the
NCUA Operating Fund as needed to fund the costs of constructing a building. Interest
income was approximately $626,000 and $512,000 for 2005 and 2004, respectively. The
note receivable balances at December 31, 2005 and 2004, were approximately $23,802,000
and $25,143,000, respectively.

The above note matures as follows (in thousands):

                                                                                               Term Note

  2006                                                                                        $ 1,341
  2007                                                                                          1,341
  2008                                                                                          1,341
  2009                                                                                          1,341
  2010                                                                                          1,341
  Thereafter                                                                                   17,097

  Total                                                                                       $ 23,802


The variable rate on the term note is equal to the Fund’s prior-month yield on investments.
The average interest rates during 2005 and 2004 were approximately 2.57% and 1.99%,
respectively. At December 31, 2005 and 2004, the rates were 3.19% and 2.00%,
respectively.

The NCUA Operating Fund leases certain office space and equipment under operating lease
agreements that expire through 2008. Based on the allocation factor determined by the
NCUA’s Board, the Fund reimburses the NCUA Operating Fund approximately 57% of the
total lease payments. The cost of services provided by the NCUA Operating Fund includes
rental charges of approximately $452,000 and $608,580 for 2005 and 2004, respectively.

The Fund’s allocation of the NCUA Operating Fund’s total future minimum lease payments
on operating leases as of December 31, 2005, is expected to be as follows (in thousands):

                                                                                              Total
  2006                                                                                         $    417
  2007                                                                                              378
  2008                                                                                              320
  2009                                                                                              328
  2010                                                                                              169

  Total                                                                                        $   1,612




                                         - 12 -
9.   LEASE COMMITMENTS

     Description of Leasing Agreements—The Fund has entered into lease agreements with
     vendors for the lease of equipment that includes computers, laptops, and printers. The Fund
     leases computer equipment under capital lease agreements that expire through 2006.

     The future minimum lease payments as of December 31, 2005, are $107 (in thousands).

10. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as
     follows:

                                               December 31, 2005                   December 31, 2004
                                            Carrying          Fair              Carrying          Fair
                                            Amount           Value              Amount           Value

     Investments                         $ 4,808,210      $ 4,751,578        $ 4,485,591      $ 4,447,376
     Cash and cash equivalents             1,798,763        1,798,763          1,872,174        1,872,174
     Accrued interest receivable              52,102           52,102             38,246           38,246
     Notes receivable—NCUA
      Operating Fund                          23,802           23,802             25,143             25,143
     Other notes receivable                    1,740            1,740              1,558              1,558
     Amounts due to insured
      shareholders of liquidated
      credit unions                            8,257            8,257             11,601             11,601
     Due to NCUA Operating Fund                  133              133                150                150
     Capital assistance liability              2,357            2,357              1,078              1,078
     Accounts payable                             35               35                 72                 72
     Obligations under capital leases            107              107                522                522


11. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the
     United States. Concentrations of member shares do exist within the manufacturing,
     governmental, and educational industries.

12. CONTINGENCIES

     NCUA is currently a party to a number of disputes that involve or may involve litigation.
     NCUA records an estimated loss for unresolved disputes to the extent that such losses are
     probable and reasonably estimable. In 2005, $1,287,000 was accrued by the NCUA
     Operating Fund to reflect probable losses. Based on the allocation factor approved by the
     NCUA Board, the estimated cost to the NCUA Operating Fund and the Fund is $553,000
     and $734,000, respectively. In the opinion of management, the ultimate liability with respect
     to any other disputes, if any, will not be material to NCUA’s financial position.

13. RESTRUCTURING

     NCUA announced on January 29, 2003, a regional restructuring plan, previously approved
     by the Board on November 21, 2002. The restructuring plan relocated the Region VI office


                                              - 13 -
   in Concord, California, to Tempe, Arizona, and renumbered it to Region V. The plan also
   closed the Region IV regional office in Chicago, Illinois. The Region IV relocation and its
   related costs began in early 2003 and were completed by June 2005. Region V, located in
   Austin, Texas, was renumbered to Region IV. Credit union supervision was aligned with the
   five regions and became effective as of January 1, 2004.

   NCUA estimated that the costs to be incurred for the regional restructuring plan were
   $3,370,000, which included relocation costs of $1,597,000, and miscellaneous
   administrative and other costs of $1,773,000. Approximately $1,880,000 of these estimated
   costs related to 2004. Included in the cost estimate for 2004 are accrued costs that were to be
   expended in 2005. Based on the allocation factors approved by the NCUA Board, the
   Operating Fund was responsible for 40.20% of costs expended in 2004. Thus, the Operating
   Fund’s estimated cost for the regional restructuring plan in 2004 was approximately
   $756,000, and the NCUSIF’s estimated cost for the regional restructuring plan in 2004 was
   $1,124,000. Substantially all costs have been incurred except for some final relocation costs
   for employees. In accordance with SFAS Statement No. 146, “Accounting for Costs
   Associated with Exit and Disposal Activities,” accruals of approximately $29,000 and
   $270,000 for relocations remain in the Fund as of December 31, 2005 and 2004,
   respectively.

14. PURCHASE COMMITMENT

   In December 2005, the NCUA Operating Fund entered into a $4.2 million commitment for
   the acquisition of 1,620 laptop computers and peripheral equipment to be used by agency
   staff and state supervision authorities. The commitment included $3.9 million for a 39
   month capital lease, payable over 12 quarterly periods at $324,000, starting April 1, 2006.
   The cost of the acquisition is shared with the Fund, based upon computers used by the state
   supervision authorities, which will be approximately $1.1 million or 28 percent.

15. HURRICANE RELATED MATTERS

   As part of its regulatory relief and forbearance efforts for credit union and their members
   impacted by hurricane activity during 2005, the NCUA, jointly with the banking agencies
   that regulate FDIC-insured institutions, issued a temporary ruling (Joint Release 9/2/05) that
   allows federal credit unions to provide assistance consistent with safe and sound practices.
   In the opinion of management, this will not have a significant effect on the Fund’s financial
   position or operations.

16. SUBSEQUENT EVENTS

   In January 2006, the Fund refunded $17 million in 1% capitalization deposits due to the
   conversion of two federally insured state credit unions to mutual savings banks.

   On February 8, 2006, the President signed legislation impacting the Fund. The Federal
   Deposit Insurance Reform Act of 2005, along with the Federal Deposit Insurance Reform
   Conforming Amendments Act of 2005, provide for certain change to insurance coverage
   provided by the Fund. On March 17, 2006, the NCUA Board issued an interim final rule
   amending share insurance to clarify coverage and implement changes required by the
   legislation.

   The interim final rule, which is effective April 1, 2006, provides the following:



                                            - 14 -
 (i.)    Increases share insurance limits to $250,000 for retirement accounts such as
         Traditional and Roth IRAs (Individual Retirement Accounts) and Keogh accounts;

(ii.)    Retains the $100,000 insurance limit for all other types of share accounts;

(iii.)   Requires NCUA and the Federal Deposit Insurance Corporation (“FDIC”) to jointly
         determine if an inflation-adjusted increase is appropriate for insured accounts
         beginning in 2010 and every five years thereafter;

(iv.)    Includes pass-through coverage on employee benefit plans while limiting
         acceptance of shares in employee benefit plans to insured credit unions that are well
         or adequately capitalized; and

 (v.)    Clarifies coverage for qualified tuition programs, commonly referred to as 529
         plans, and share accounts denominated in foreign currencies.

NCUA and FDIC coordinated their share and deposit insurance interim rules regarding
coverage amounts. While retirement accounts gain increased coverage, the rule retains the
provision that retirement accounts are insured separately from other accounts at the same
institution. NCUA issued the interim final rule with a 60-day comment period.

                                       ******




                                          - 15 -
National Credit Union
Administration
Central Liquidity Facility
Financial Statements as of and for the Years
Ended December 31, 2005 and 2004,
and Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

TABLE OF CONTENTS


                                                     Page

INDEPENDENT AUDITORS’ REPORT                          1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2005 AND 2004:

 Balance Sheets                                       2

 Statements of Operations                             3

 Statements of Members’ Equity                        4

 Statements of Cash Flows                             5

 Notes to Financial Statements                       6–10
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:
We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (“CLF”) as of December 31, 2005 and 2004, and the related statements of operations,
members’ equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Company’s internal control over financial reporting. Accordingly, we express no such
opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in
the financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.
In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 2005 and 2004, and the
results of its operations and its cash flows for the years then ended in conformity with accounting principles
generally accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our report dated March 24, 2006, on
our consideration of National Credit Union Administration Central Liquidity Facility’s internal control over
financial reporting and our tests of its compliance and other matters. The purpose of that report is to describe
the scope of our testing, and not to provide an opinion on the internal control over financial reporting or on
compliance. That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our audit.


March 24, 2006




                                                        1
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
BALANCE SHEETS
AS OF DECEMBER 31, 2005 AND 2004
(In thousands)


ASSETS                                                      2005            2004

ASSETS:
 Cash                                                 $         10    $         10
 Investments with U.S. Central Federal Credit
  Union (Notes 5, 8, and 9)                               1,470,390       1,357,028
 Accrued interest receivable                                 14,557           6,533

TOTAL                                                 $ 1,484,957     $ 1,363,571


LIABILITIES AND MEMBERS’ EQUITY

LIABILITIES:
 Accounts payable and other liabilities               $        120    $        108
 Dividends payable (Note 7)                                 14,475           6,478
 Member deposits (Note 7)                                      509             232

       Total liabilities                                    15,104           6,818

MEMBERS’ EQUITY:
 Capital stock—required (Note 7)                          1,458,445       1,345,345
 Retained earnings                                           11,408          11,408

       Total members’ equity                              1,469,853       1,356,753

TOTAL                                                 $ 1,484,957     $ 1,363,571


See notes to financial statements.




                                                -2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(In thousands)


                                                   2005       2004

REVENUE—Investment income                        $ 46,985   $ 19,371

EXPENSES (Note 10):
 Operating expenses:
  Group agent service fee                              1          1
  Personnel services                                 135        129
  Other services                                      42         41
  Rent, communications, and utilities                  7          8
  Personnel benefits                                  34         32
  Supplies and materials                               3          2
  Printing and reproduction                            6          3

       Total operating expenses                      228        216

 Interest-liquidity reserve                           13         49

       Total expenses                                241        265

EXCESS OF REVENUE OVER EXPENSES                  $ 46,744   $ 19,106


See notes to financial statements.




                                        -3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF MEMBERS’ EQUITY
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(In thousands)


                                                   Capital     Retained
                                                   Stock       Earnings

BALANCE—December 31, 2003                        $ 1,218,654   $ 11,407

 Issuance of required capital stock                 128,900

 Redemption of required capital stock                (2,209)

 Dividends                                                      (19,105)

 Excess of revenue over expenses                                 19,106

BALANCE—December 31, 2004                         1,345,345      11,408

 Issuance of required capital stock                 113,554

 Redemption of required capital stock                  (454)

 Dividends                                                      (46,744)

 Excess of revenue over expenses                                 46,744

BALANCE—December 31, 2005                        $ 1,458,445   $ 11,408


See notes to financial statements.




                                        -4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY
STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004
(In thousands)


                                                                       2005            2004

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of revenue over expenses                                  $    46,744     $    19,106
 Adjustments to reconcile excess of revenue over expenses
  to net cash provided by operating activities:
  (Increase) decrease in accrued interest receivable                    (8,024)         (2,880)
  (Decrease) increase in accounts payable and other liabilities             12             (28)

       Net cash provided by operating activities                       38,732          16,198

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments—net                                          (113,362)       (118,972)

       Net cash used in investing activities                          (113,362)       (118,972)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                             864             516
 Issuance of required capital stock                                   113,554         128,900
 Dividends                                                            (38,747)        (16,193)
 Withdrawal of member deposits                                           (587)         (8,240)
 Redemption of required capital stock                                    (454)         (2,209)

       Net cash provided by financing activities                       74,630         102,774

NET DECREASE IN CASH

CASH—Beginning of year                                                     10              10

CASH—End of year                                                  $        10     $        10

SUPPLEMENTAL DISCLOSURE OF CASH FLOW
 INFORMATION—Cash paid during the year for—
 Interest                                                         $        13     $        49


See notes to financial statements.




                                                    -5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Central Liquidity Facility (“CLF”) was created
     by the National Credit Union Central Liquidity Facility Act (the “Act”). The CLF is
     designated as a mixed-ownership government corporation under the Government
     Corporation Control Act. The CLF exists within the National Credit Union Administration
     (“NCUA”) and is managed by the National Credit Union Administration Board. The CLF
     became operational on October 1, 1979.

     The purpose of the CLF is to improve general financial stability by meeting the liquidity
     needs of credit unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the
     Internal Revenue Code.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Basis of Accounting—The CLF maintains its accounting records on the accrual basis of
     accounting.

     Loans and Allowance for Loan Losses—Loans, when made to members, are on a short-
     term or long-term basis. For all loans, the CLF may obtain a security interest in the assets of
     the borrower. In determining the allowance for loan losses, when applicable, the CLF
     evaluates the collectibility of its loans to members through examination of the financial
     condition of the individual borrowing credit unions and the credit union industry in general.

     Funds on Deposit with U.S. Central Federal Credit Union—The CLF invests in redeposits
     and share accounts at U.S. Central Federal Credit Union (see Notes 5 and 8). These are non-
     transferable, non-negotiable instruments that are acquired at face value and carried at cost.

     Fair Value of Financial Instruments—The following methods and assumptions were used
     in estimating the fair value disclosures for financial instruments:

     Cash—The carrying amounts for cash approximate fair value.

     Investments—Fair values of financial instruments with maturities over one year are
     computed using the market rate of interest at year-end. For financial instruments with
     maturities of one year or less, the carrying amounts approximate fair value.

     Loans—For loans advanced to member credit unions, the carrying amounts approximate fair
     value.

     Member Deposits—Funds maintained with the CLF in excess of required capital amounts
     are recorded as member deposits. These deposits are due upon demand and the carrying
     amounts approximate the fair value.



                                                 6
     FFB Notes Payable—For notes issued to the Federal Financing Bank, when applicable, the
     carrying amounts approximate fair value.

     Other—Accrued interest receivable, accounts payable and other liabilities are recorded at
     book values, which approximate the respective fair values.

     Use of Estimates—The preparation of financial statements in conformity with accounting
     principles generally accepted in the United States of America requires management to make
     estimates and assumptions that affect the reported amounts of assets and liabilities and
     disclosures of contingent assets and liabilities at the date of the financial statements and the
     reported amounts of revenues and expenses during the reporting period. Actual results could
     differ from management’s estimates.

3.   GOVERNMENT REGULATIONS

     The CLF is subject to various Federal laws and regulations. The CLF’s operating budget
     requires Congressional approval, and the CLF may not make loans to members for the
     purpose of expanding credit union loan portfolios. The CLF’s investments are restricted to
     obligations of the United States Government and its agencies, deposits in Federally insured
     financial institutions, and shares and deposits in credit unions. Borrowing is limited by
     statute to twelve times the subscribed capital stock and surplus. However, there is a
     Congressional limitation of $1.5 billion on funds that are borrowed and then loaned out to
     credit unions at any one point in time.

     At December 31, 2005 and 2004, the CLF was in compliance with its borrowing authority.
     Borrowings would be from the Federal Financing Bank with interest generally payable upon
     maturity (see Notes 6 and 12).

4.   LOANS TO MEMBERS

     There were no loans or loan commitments outstanding at December 31, 2005 and 2004. The
     CLF can provide members with extended loan commitments.

5.   FUNDS ON DEPOSIT WITH U.S. CENTRAL FEDERAL CREDIT UNION

     Funds not currently required for operations are invested as follows (in thousands):

                                                                                          December 31,
                                                                                   2005                  2004



       U.S. Central Federal Credit Union Redeposit Account                     $ 1,468,390        $ 1,357,028
       U.S. Central Federal Credit Union Share Certificates                          2,000

                                                                               $ 1,470,390        $ 1,357,028


       A Memorandum of Understanding (“MOU”), effective July 1, 2005, sets forth the
       understanding of CLF and the U.S. Central Federal Credit Union (“USC”) concerning the
       investments by the CLF in USC Share Accounts and Certificates. This MOU supersedes
       and replaces the MOU effective July 1, 2002, between the CLF and USC.


                                                 7
       As provided in the MOU, all investments by the CLF in shares of USC will be in either
       Share Account or Share Certificates. The Share Account is a three month, fixed rate account
       that provides for automatic re-investment at maturity and daily availability of funds with no
       penalty for early withdrawal. The Share Account is only available to the CLF. In the event
       of liquidation of the USC, shares in the account will be redeemable in full, prior to the
       redemption of any other shares of the USC.

       The Share Certificates are fixed rate, with a maturity fixed upon issuance (three or five
       years under the current MOU). Redemption prior to maturity is permitted, in whole or in
       part, if the CLF requests early redemption and if the USC and the CLF agree on an “early
       redemption value”. The Share Certificates are neither negotiable nor assignable.

6.   BORROWING AUTHORITY

     The CLF is authorized by statute to borrow, from any source, an amount not to exceed
     twelve times its subscribed capital stock and surplus. Congress restricted CLF’s borrowing
     authority to $1.5 billion for the fiscal years 2004, 2005 and 2006, for the principal amount
     of new direct loans to member credit unions. Borrowings would be from the Federal
     Financing Bank with interest generally payable upon maturity (see Note 12).

     The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF
     in the event that the Board certifies to the Secretary that the CLF does not have sufficient
     funds to meet the liquidity needs of credit unions. This authority to lend is limited to such
     extent and in such amounts as are provided in advance by Congressional Appropriation
     Acts. On December 23, 1981, the President signed PL 97-101, which provided $100 million
     of permanent indefinite borrowing authority that may be provided by the Secretary of the
     Treasury to the CLF to meet emergency liquidity needs of credit unions.

7.   CAPITAL STOCK AND MEMBER DEPOSITS

     The required capital stock account represents subscriptions remitted to the CLF by member
     credit unions. Regular members’ required subscription amounts equal one-half of one
     percent of their paid-in and unimpaired capital and surplus, one-half of which is required to
     be remitted to the CLF. Agent members’ required subscription amounts equal one-half of
     one percent of the paid-in and unimpaired capital and surplus of all of the credit unions
     served by the agent member, one-half of which is required to be remitted to the CLF. In
     both cases, the remaining one-half of the subscription is required to be held in liquid assets
     by the member credit unions subject to call by the National Credit Union Administration
     Board. These unremitted subscriptions are not reflected in the CLF’s financial statements.
     Subscriptions are adjusted annually to reflect changes in the member credit unions’ paid-in
     and unimpaired capital and surplus. Dividends are declared and paid on required capital
     stock.

     Member deposits represent amounts remitted by members over and above the amount
     required for membership. Interest is paid on member deposits at a rate equivalent to the
     dividend rate paid on required capital stock.

     Dividends payable represents dividends declared in 2005 to be paid in 2006.




                                                 8
8.   U.S. CENTRAL FEDERAL CREDIT UNION MEMBERSHIP

     During fiscal year 1984, the CLF accepted a membership request from U.S. Central Federal
     Credit Union (“USC”) on behalf of its corporate credit union members. At December 31,
     2005 and 2004, $1,401,373,000 and $1,292,059,000, respectively, of the required portion of
     subscribed capital stock were purchased from the CLF by USC on behalf of member credit
     unions of its corporate credit union members. The USC has 29 corporate credit union
     members as of both December 31, 2005 and 2004.

     The CLF reinvests all of its agent member share capital in USC at market rates of interest.
     At December 31, 2005 and 2004, approximately $1,470,390,000 and $1,357,028,000,
     respectively, were invested in USC accounts at 3.92% and 1.91%, respective yields.

9.   CONCENTRATION OF CREDIT RISK

     At December 31, 2005 and 2004, the CLF has a concentration of credit risk for its
     investments on deposit with USC of approximately $1,470,390,000 and $1,357,028,000,
     respectively (see Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION
    ADMINISTRATION

     The National Credit Union Administration provides the CLF with data processing and other
     miscellaneous services and supplies. In addition, the National Credit Union Administration
     pays CLF’s employees’ salaries and benefits as well as the CLF’s portion of monthly
     building operating costs. The CLF reimburses the National Credit Union Administration on
     a monthly basis for these items. The total amounts charged by the National Credit Union
     Administration were approximately $220,000 and $218,000 for the years ended
     December 31, 2005 and 2004, respectively. As of both December 31, 2005 and 2004,
     accounts payable and other liabilities include approximately $91,000 due to the National
     Credit Union Administration Operating Fund for services provided.

11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the CLF’s financial instruments are as
     follows (in thousands):

                                                         December 31, 2005                  December 31, 2004
                                                     Carrying           Fair            Carrying           Fair
                                                      Amount            Value            Amount            Value

       Cash                                      $         10     $            10   $         10     $            10
       Funds on deposit with
        U.S. Central Federal Credit Union            1,470,390        1,470,345         1,357,028        1,357,028
       Accrued interest receivable                      14,557           14,557             6,533            6,533
       Member Deposits                                     509              509               232              232
       Dividends Payable                                14,475           14,475             6,478            6,478
       Accounts payable and
        other liabilities                                 120              120               108                108




                                                9
12. SHORT-TERM REVOLVING CREDIT FACILITY

   On July 15, 1999, the National Credit Union Administration signed a note purchase
   agreement with the Federal Financing Bank on behalf of CLF. The first promissory note
   under that note purchase agreement originally provided for a commitment amount of $20.7
   billion. Subsequently, the note purchase agreement expired on September 30, 2000, and was
   extended through amendments annually. These promissory notes reduced the credit facility
   to $5 billion and expire yearly on the 31st of March. The current promissory note expires
   March 31, 2006.

                                       ******




                                           10
National Credit Union
Administration
Community Development
Revolving Loan Fund
Financial Statements
as of and for the Years Ended
December 31, 2005 and 2004, and
Independent Auditors’ Reports
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

TABLE OF CONTENTS

                                                     Page

INDEPENDENT AUDITORS’ REPORT                          1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2005 AND 2004:

 Balance Sheets                                        2

 Statements of Operations                              3

 Statements of Changes in Fund Balance                 4

 Statements of Cash Flows                              5

 Notes to Financial Statements                       6–10
INDEPENDENT AUDITORS’ REPORT


To the Inspector General of
National Credit Union Administration:
We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Fund (“CDRLF”) as of December 31, 2005 and 2004, and the related
statements of operations, changes in fund balance, and cash flows for the years then ended. These financial
statements are the responsibility of the CDRLF’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the audit
to obtain reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the CDRLF’s internal control over financial reporting. Accordingly, we express no such
opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures
in the financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.
In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Fund as of December 31,
2005 and 2004, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.
In accordance with Government Auditing Standards, we have also issued our report dated March 24, 2006,
on our consideration of National Credit Union Administration Community Development Revolving Loan
Fund’s internal control over financial reporting and our tests of its compliance and other matters. The
purpose of that report is to describe the scope of our testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. That report is an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.



March 24, 2006




                                                        1
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

BALANCE SHEETS
AS OF DECEMBER 31, 2005 AND 2004


                                                 2005             2004
ASSETS

Cash and cash equivalents (Note 2)         $ 11,959,875     $ 10,036,466
Loans—Net of allowance (Note 4)               4,554,047        5,017,156
Interest receivable                              11,293           17,057

TOTAL                                      $ 16,525,215     $ 15,070,679


LIABILITIES AND FUND BALANCE

LIABILITIES:
 Accrued technical assistance              $     837,265    $     727,301

       Total liabilities                         837,265          727,301

FUND BALANCE:
 Revolving fund capital (Note 3)               14,337,778       13,189,378
 Accumulated earnings                           1,350,172        1,154,000

       Total fund balance                      15,687,950       14,343,378

TOTAL                                      $ 16,525,215     $ 15,070,679


See notes to financial statements.




                                     -2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND
STATEMENTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


                                                    2005             2004

SUPPORT AND REVENUES:
 Interest on cash equivalents                    $ 274,095     $     122,229
 Interest on loans                                  52,700            66,193
 Appropriation revenue                             793,600         1,035,138

       Total                                      1,120,395        1,223,560

EXPENSES:
 Technical assistance                             (886,865)        (1,207,052)
 Reduction of allowance for loan losses            (37,358)            31,718

       Total                                       (924,223)       (1,175,334)

EXCESS OF SUPPORT AND REVENUES
 OVER EXPENSES                                   $ 196,172     $      48,226


See notes to financial statements.




                                          -3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CHANGES IN FUND BALANCE
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


                                                          2005           2004

FUND BALANCE—Beginning of year                        $14,343,378    $14,137,370

 Change in unexpended appropriations:
  Operating appropriations received (Note 3)            1,942,000      1,192,920
  Appropriation revenue recognized (Note 3)              (793,600)    (1,035,138)

 Excess of support and revenues over expenses             196,172         48,226

FUND BALANCE—End of year                              $ 15,687,950   $ 14,343,378


See notes to financial statements.




                                                -4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


                                                                    2005              2004

CASH FLOWS FROM OPERATING ACTIVITIES:
 Excess of support and revenues over expenses                 $     196,172     $      48,226
 Adjustments to reconcile the excess of support
  and revenues over expenses to net cash
  used in operating activities:
  Change in unexpended appropriations                               (793,600)       (1,035,138)
  Reduction of allowance for loan losses, net of recoveries          (12,913)         (106,907)
  Changes in assets and liabilities:
   Decrease in interest receivable                                    5,764             2,947
   Increase in accrued technical assistance                         109,964           584,609

       Net cash used in operating activities                       (494,613)         (506,263)

CASH FLOWS FROM INVESTING ACTIVITIES:
 Loan principal repayments                                         2,145,022         1,885,228
 Loan disbursements                                               (1,669,000)       (1,497,458)

       Net cash provided by investing activities                    476,022           387,770

CASH FLOWS FROM FINANCING ACTIVITIES—
 Appropriations received—revolving fund capital                    1,942,000        1,192,920

       Net cash provided by financing activities                   1,942,000        1,192,920

NET INCREASE IN CASH AND CASH EQUIVALENTS                          1,923,409        1,074,427

CASH AND CASH EQUIVALENTS—Beginning of year                       10,036,466        8,962,039

CASH AND CASH EQUIVALENTS—End of year                         $ 11,959,875      $ 10,036,466


See notes to financial statements.




                                                   -5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN FUND

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2005 AND 2004


1.   NATURE OF ORGANIZATION

     The Community Development Revolving Loan Fund for Credit Unions (“CDRLF”) was
     established by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate
     economic development in low-income communities. The National Credit Union
     Administration (“NCUA”) and the Community Services Association (“CSA”) jointly
     adopted Part 705 of NCUA Rules and Regulations, governing administration of the Fund,
     on February 28, 1980.

     Upon the dissolution of CSA in 1983, administration of the CDRLF was transferred to the
     Department of Health and Human Services (“HHS”). Because HHS never promulgated final
     regulations governing the administration of the CDRLF, the Fund was dormant.

     The Community Development Credit Union Transfer Act (Public Law 99-604, November 6,
     1986) transferred CDRLF administration back to NCUA. The NCUA Board adopted
     amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and
     began making loans/deposits to participating credit unions in 1990.

     The purpose of the CDRLF is to stimulate economic activities in the communities served by
     low-income credit unions which will result in increased income, ownership and employment
     opportunities for low-wealth residents, and other economic growth. The policy of NCUA is
     to revolve the loans to qualifying credit unions as often as practical in order to gain
     maximum impact on as many participating credit unions as possible.

2.   SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

     Basis of Accounting—The CDRLF reports its financial statements on the accrual basis of
     accounting.

     Cash Equivalents—The Federal Credit Union Act permits the CDRLF to make investments
     in United States Government Treasury securities. All investments in 2005 and 2004 were
     cash equivalents and are stated at cost which approximates fair value. Cash equivalents are
     highly liquid investments with original maturities of three months or less.

     Allowance for Loan Losses—The CDRLF records a provision for estimated loan losses.
     Loans considered to be uncollectible are charged to the allowance for loan losses.
     Management continually evaluates the adequacy of the allowance for loan losses based upon
     prevailing circumstances and an assessment of collectibility risk of the total loan portfolio.
     Accrual of interest is discontinued on non-performing loans when management believes
     collectibility is doubtful. At December 31, 2005 and 2004, there were no nonaccrual loans.




                                               -6-
     Salary and Operating Expenses—NCUA provides certain general and administrative
     support to the CDRLF, including office space, salaries, and certain supplies. The value of
     these contributed services is not charged to the CDRLF.

     Revenue Recognition—Appropriation revenue is recognized as the related technical
     assistance expense is recognized. Total appropriation revenues will differ from total
     technical assistance expenses because not all technical assistance is funded by
     appropriations.

     Use of Estimates—The preparation of financial statements in conformity with accounting
     principles generally accepted in the United States of America requires management to make
     estimates and assumptions that affect the reported amounts of assets and liabilities and
     disclosure of contingent assets and liabilities at the date of the financial statements and the
     reported amounts of revenues and expenses during the reporting period. Actual results could
     differ from management’s estimates.

     Reclassifications—Certain 2004 balances have been reclassified to conform to the 2005
     presentation.

3.   GOVERNMENT REGULATIONS

     The CDRLF is subject to various Federal laws and regulations. Assistance, which includes
     lending and technical assistance, is limited by Congress to a total of the $18,473,699
     appropriated for the CDRLF plus accumulated earnings. Federally chartered and state-
     chartered credit unions may participate in the CDRLF’s Community Loan Fund. Loans may
     only be made to low-income credit unions as defined by the NCUA.

     NCUA Rules and Regulations section 705.7 permit the classification of the loan in the
     participating credit union’s accounting records as either a note payable or a nonmember
     deposit. As a nonmember deposit, an amount not to exceed $100,000 per credit union is
     insured by the National Credit Union Share Insurance Fund (“NCUSIF”). The covered
     amount of loans recorded as nonmember deposits by participating credit unions insured by
     the NCUSIF totaled approximately $3,034,000 and $3,632,000 at December 31, 2005 and
     2004, respectively. Under the CDRLF Loan Program, loans recorded in the credit union’s
     accounting records as notes payable may be collateralized.

     Loans are limited to a maximum amount of $300,000 per credit union. Loans issued between
     January 1, 1995, and December 31, 1998, carry a fixed interest rate of 3%; loans issued
     between January 1, 1999, and December 31, 2001, carry a fixed rate of 2%; and loans issued
     after January 1, 2002, carry a fixed rate of 1%. Interest and principal are repaid on a
     semiannual basis beginning six months and one year, respectively, after the initial distribution
     of the loan. The maximum term of each loan is five years. Participating credit unions are
     required to match the value of the loan within one year of the date of approval of the loan.

     During the year ended December 31, 2005, appropriations for loans and technical assistance in
     the amount of $1,942,000 were received. Of this amount, $1,743,600 was designated to be
     used as operating appropriations for technical assistance and $198,400 was designated to be
     used as revolving fund capital.




                                               -7-
     For the appropriations received for technical assistance for FY 2005-2006, $796,400 expires
     on September 30, 2006. For the appropriations received for technical assistance for FY 2006-
     2007, $950,000 expires on September 30, 2007.

                                                              Public Laws
       Activities by each appropriation, from
                                              No. 108-199     No. 108-199     No. 109-115           Total
       inception

        Operating appropriation received       $ 793,600      $ 198,400       $ 950,000       $ 1,942,000
        Appropriation revenue recognized         793,600                                          793,600

        Balance—December 31, 2005              $              $ 198,400       $ 950,000          $ 1,148,400


                                                                               2005                 2004

       Unexpended appropriations:
        Balance—beginning of the year                                     $     895,178      $       737,396
        Operational appropriations received                                   1,942,000            1,192,920
        Appropriation revenue recognized                                       (793,600)          (1,035,138)

       Balance—end of year                                                $   2,043,578      $      895,178

       Revolving fund capital:
        Balance—beginning of the year                                     $ 13,189,378       $ 13,031,596
        Change in unexpended appropriations                                  1,148,400            157,782

       Balance—end of year                                                $ 14,337,778       $ 13,189,378


4.   LOANS

     Loans outstanding at December 31, 2005 and 2004, are scheduled to be repaid during the
     following subsequent years:

                                                                                  2005               2004

       Year 1                                                                 $ 1,298,223        $ 1,827,943
       Year 2                                                                   1,310,287          1,179,047
       Year 3                                                                     826,790          1,068,191
       Year 4                                                                     720,127            583,491
       Year 5                                                                     418,800            391,577

                                                                                4,574,227          5,050,249

       Less allowance for loan losses                                             (20,180)           (33,093)

       Net loans outstanding                                                  $ 4,554,047        $ 5,017,156




                                              -8-
     Changes in the allowance for loan losses are summarized below:
                                                                                      2005            2004

       Balance—beginning of year                                                   $ 33,093      $ 140,000

        Write-offs                                                                  (50,271)         (75,189)
        Provision (reduction of allowance) for loan losses                           37,358          (31,718)

       Balance—end of year                                                         $ 20,180      $ 33,093


5.   CONCENTRATION OF CREDIT RISK

     At December 31, 2005 and 2004, there are no significant concentrations of credit risk in the
     loan portfolio. As discussed in Note 1, the CDRLF provides loans to credit unions that serve
     predominantly low-income communities.

6.   ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

     The following disclosures of the estimated fair value of financial instruments are made in
     accordance with the requirements of Statement of Financial Accounting Standards No. 107,
     Disclosures about Fair Value of Financial Instruments. The methods and assumptions used
     in estimating the fair value disclosures for financial instruments are as follows:

     Cash and Cash Equivalents—The carrying amounts for cash and cash equivalents
     approximate fair values.

     Interest Receivable and Accrued Technical Assistance—Such items are recorded at book
     values, which approximate the respective fair values.

     Loans—The fair value is estimated by discounting projected future cash flows using current
     market interest rates. For purposes of this calculation, the discount rate used was the prime
     interest rate plus two percent (6.37% at December 31, 2005 and 7.25% at December 31,
     2004).




                                               -9-
The carrying amount and the estimated fair value of the CDRLF’s financial instruments are
as follows:

                                               December 31, 2005                December 31, 2004

                                          Carrying          Estimated        Carrying          Estimated
                                           Amount           Fair Value       Amount            Fair Value

  Assets:
   Cash and cash equivalents          $ 11,959,875      $ 11,959,875     $ 10,036,466     $ 10,036,466

   Interest receivable                $      11,293     $      11,293    $     17,057     $       17,057

   Loans                              $ 4,574,227       $ 4,394,307      $ 5,050,249      $ 4,764,471
   Allowance for loan losses              (20,180)          (20,180)         (33,093)         (33,093)

   Loans—net of allowance             $ 4,554,047       $ 4,374,127      $ 5,017,156      $ 4,731,378

  Liabilities:
   Accrued technical assistance       $     837,265     $     837,265    $    727,301     $      727,301



It is the intent of the CDRLF to hold its loans to maturity. The CDRLF anticipates realizing
the carrying amount in full. Fair value is less than the carrying amount because loans are
made at less than market interest rates.

                                      ******




                                          - 10 -
